CERTIFICATE OF SERVICE
The undersigned certifies that, on this 8th day of September 2020, in addition
to electronically filing the accompanying Brief Amicus Curiae of Rep. Andy Barr in
Support of Petitioners – together with a word-count certificate –one true and correct
copy of the foregoing documents was served by U.S. Priority Mail, postage pre-paid,
with a PDF courtesy copy served via electronic mail on the following counsel:
Jeffrey B. Wall
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
Tel: 202-514-2217
Email: SupremeCtBriefs@USDOJ.gov

Joshua A. Klein
Office of the Solicitor General
California Department of Justice
1515 Clay Street, Suite 2000
Oakland, CA 94612-1413
Tel: 510-879-0756
Email: joshua.klein@doj.ca.gov

Tania Maestas
Deputy Attorney General
Office of the Attorney General
PO Drawer 1508
Santa Fe, NM 87504-1508
Tel: (505) 490-4060
Email: tmaestas@nmag.gov

Dror Ladin
ACLU Foundation
125 Broad Street
New York, NY 10004
Tel: 212-549-2500
Email: dladin@aclu.org

The undersigned further certifies that, pursuant to this Court’s order dated April 15, 2020, on this
8th day of September 2020, a single original of the accompanying Brief Amicus Curiae of Rep.
Andy Barr in Support of Petitioners – together with a word-count certificate and this
certificate of service –were filed by Federal Express.
I declare under penalty of perjury that the foregoing is true and correct.
Executed September 8, 2020,
/s/ Lawrence J. Joseph
______________________________
Lawrence J. Joseph
Counsel for Amicus Curiae

